APPENDIX

1a
[ENTERED: September 15, 2020]
United States Court of Appeals
Fifth Circuit
FILED
September 15, 2020
Lyle W. Cayce
Clerk
United States Court of Appeals
for the Fifth Circuit
No. 19-10785
Ralph Clay Walsh, Jr.,
Plaintiff—Appellee,
versus
Lisa Hodge; John Schetz; Lisa Killam-Worrall;
Jessica Hartos; Emily Spence-Almaguer; Sumihiro
Suzuki; Victor Kosmopoulos; Michael R. Williams;
Patricia Gwirtz; Damon Schranz,
Defendants—Appellants.
Appeals from the United States District Court
for the Northern District of Texas
USDC No. 4:17-CV-323
Before Davis, Jones, and Engelhardt, Circuit Judges.
W. Eugene Davis, Circuit Judge:

2a
Ralph Walsh, Jr., a former medical school
professor at the University of North Texas Health
Science Center (“University”), sued various professors
and school administrators (collectively, “Defendants”)
under § 1983, alleging they violated his Fourteenth
Amendment procedural due process rights. The
Defendants voted to recommend firing Walsh after
conducting a hearing to address a student’s sexual
harassment claim against him. Walsh asserted that
Defendants denied him both a fair tribunal and a
meaningful opportunity to be heard. Defendants
moved for summary judgment on the basis of
qualified immunity, and the district court partially
denied the motion. Because Walsh’s deprivations
of due process were not clearly established
constitutional rights, we REVERSE the district
court’s denial of qualified immunity and RENDER
judgment in favor of Defendants.
I. BACKGROUND
Walsh is a doctor in osteopathic manipulative
medicine (OMM) and family medicine. He served as
an Assistant and Associate Professor for the
University, where he both taught and engaged in
clinical work from 2011 to 2015. The University could
terminate Walsh before the expiration of his
employment contract only for good cause.
In October 2014, Walsh attended a medical
conference in Seattle with two fellow University
faculty members and two medical students. The
conference included a formal banquet consisting of a
reception, dinner, and dancing. All parties consumed
alcohol, and the evening soon became “festive and
somewhat boisterous.”

3a
When the conference ended and the parties
returned to Texas, one of the two students, Student
#1, promptly filed a Title VII complaint with the
University. She alleged Walsh sexually harassed her
at the banquet. The University hired attorney Lisa
Kaiser to investigate Student #1’s complaint. Kaiser
interviewed all parties and prepared a report
documenting the allegations, along with details of her
investigation and an ultimate recommendation.
Kaiser’s report detailed the evening from
Student #1’s perspective. Student #1 “complained
that Dr. Walsh put his arm around her, rubbed her
back and touched her buttocks after the dinner
service.” Student #1 also observed Walsh “standing
behind her while she was sitting, and he was looking
down her dress,” becoming more aggressive as the
evening wore on. She reported feeling uncomfortable,
especially when Walsh repeatedly asked “whether he
should come to her room.” Student #1 explained that
while she felt “embarrassed” and “ashamed,” she did
not want to leave or be “that student” who did not
participate; she “did not know what to do at the time.”
Student #1 also expressed unease over an
email Walsh sent her the morning after the banquet.
Part of the email read, “Hi. Are you and [Student #2]
still here? You are welcome to do some hands-on
training with me at OES.” Student #1 understood the
phrase “hands-on training” to be sexually suggestive
and left the conference two days early as a result. She
explained that, upon returning to school, she still felt
“embarrassed” and “distracted,” and she no longer
wanted to come to campus. She stressed that Walsh,
as her professor, should have been someone whom she
could trust.

4a
Kaiser next interviewed the other parties
present that evening: Student #2, Faculty Member
#1, and Faculty Member #2. Student #2 confirmed
that Student #1 looked “uncomfortable.” Faculty
Member #1 and #2 saw the controversy differently.
Faculty Member #2 said she did not see anything
inappropriate. She explained Walsh’s behavior by
reasoning that the medical profession is “very
handsy” with “quite a bit of hugging,” but that
students are in a “different mindset,” and she could
see “how students can misinterpret.” She argued that
Student #1 “could have left without making a scene”
had she wished. Faculty Member #1 echoed Faculty
Member #2’s statements, remarking that “nobody left
the event crying.” But he also recalled walking
Student #1 back to her room at her request, because
she feared Walsh would be waiting for her when she
got there.
Kaiser next interviewed Walsh, who contested
Student #1’s depiction of the evening. He stressed the
flirtation was mutual—Student #1 at no point
communicated her unease to him. Indeed, he claimed
she reciprocated his advances: she sat on his hand,
danced with him, and held hands throughout the
evening. He argued photos from the evening
corroborated that Student #1 was at no point uneasy.
He only asked to walk her to her room because he
worried she had too much to drink; moreover, she
replied, “Maybe. I don’t know. I’ll let you know,”
portraying no discomfort. As to the email he sent the
next morning, Walsh explained he sought to tell
Student #1 in person that he regretted their flirtation,
since he is a married man. “Hands-on training”
carried no double entendre, he clarified, because this
terminology is frequently used by the OMM group.

5a
After hearing from Walsh, Kaiser re-interviewed
Student #1.
Kaiser’s report concluded that the interviews
substantiated Student #1’s allegation. Kaiser sent her
report to the Dean of the University, who then
recommended Walsh’s termination. Walsh learned of
Kaiser’s report and the decision to take disciplinary
action, and he appealed the decision to the
University’s Faculty Grievance and Appeal
Committee (“Committee”).
Soon thereafter, Patricia Gwirtz, Chair of the
Committee, sent Walsh a letter outlining the charges
against him, a list of the Committee’s witnesses, and
the evidence it planned to consider. The letter also
informed Walsh he could set up an appointment to
review Kaiser’s report and take notes. The Committee
gave Walsh 90 minutes to present his case.
During the next five weeks, Walsh reviewed
Kaiser’s redacted report twice, and he prepared a fivepage letter to the Committee outlining his defenses.
Walsh sought to circulate photos from the banquet
that he believed was evidence that Student #1
welcomed his flirtations, but Gwirtz determined they
were not relevant.
The Committee consisted of eight voting
members and Gwirtz, who served as chair with a
tiebreak vote. Kaiser testified first at the hearing. She
answered the Committee’s questions, echoing her
findings and explaining how she went about
interviewing the parties.
Walsh was not represented by counsel at the
hearing but was accompanied by a fellow professor,

6a
Dr. Gamber. On cross-examination, Walsh challenged
Kaiser’s account of the evidence, which he argued
ignored his side of the story.
Walsh then offered his account of the evening.
Much of his testimony was spent explaining that he
viewed their interactions as mutual flirtation, and
repeatedly urged that Kaiser’s report was
“inaccurate” and biased. At numerous points, Walsh
sought to bring up the photos from the evening but
was refused each time.
The University offered two other witnesses:
Dean Don Peska, who outlined the charges against
Walsh and produced evidence on behalf of the
University, and Director of Human Resources Dana
Perdue, who explained the University’s investigative
process. Walsh, meanwhile, called Julie Innmon, a
labor and employment attorney with experience
conducting sexual harassment investigations; she
testified to the procedural deficiencies of the hearing.
Walsh had two other witnesses who spoke to his
character, as well as six other character witnesses
who provided written testimony to the Committee.
When the hearing concluded, the Committee
found that Walsh’s conduct violated the provisions of
the University’s Faculty Policy by a 6-0-2 vote and the
University’s Faculty Bylaws by a unanimous vote.
The Committee recommended that Walsh be
terminated for violating the University’s Policy No.
05.205, Sexual Harassment, and Article XIII of the
University’s Faculty Bylaws. The University Provost,
after reviewing the record, agreed with the
Committee and recommended to the University’s
President that Walsh should be terminated. Walsh

7a
was given the opportunity to appeal this decision.
Walsh submitted another letter to appeal the
Committee’s finding, but the President agreed with
the Committee and terminated Walsh five months
before the end of his year-long contract.
Walsh filed a § 1983 suit against the University
and its faculty members/administrators involved in
his termination, each in his or her individual capacity.
The University officials moved for summary
judgment on grounds that they did not violate Walsh’s
procedural due process rights and were entitled to
qualified immunity. The district court partially
granted Defendants’ motion, holding that Walsh was
adequately apprised of the charges against him. The
court otherwise denied the motion. Defendants timely
appealed the court’s ruling that they were not entitled
to qualified immunity.
II. DISCUSSION
A. Standard of Review
We first address our jurisdiction to hear this
appeal. While a denial of summary judgment is not a
final judgment, the Supreme Court has held that it
may be considered a collateral order capable of
immediate review when (1) the defendant is a public
official asserting qualified immunity, and (2) “the
issue appealed concerned, not which facts the parties
might be able to prove, but, rather, whether or not
certain given facts show a violation of ‘clearly
established’ law.”1

1

omitted).

Johnson v. Jones, 515 U.S. 304, 311 (1995) (citation

8a
“A denial of summary judgment based on
qualified immunity is reviewed de novo.”2 Summary
judgment is appropriate when “the movant shows that
there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”3
When assessing an interlocutory appeal for qualified
immunity, however, we cannot review a district
court’s conclusions that a genuine issue of fact exists
concerning whether a defendant engaged in certain
conduct.4 We must instead “review the complaint and
record to determine whether, assuming that all of
[plaintiff’s] factual assertions are true, those facts are
materially sufficient to establish that defendants
acted in an objectively unreasonable manner.”5 In
other words, “we can review the materiality of any
factual disputes, but not their genuineness.”6
This analysis requires two steps. First, we
must determine whether Walsh suffered a violation of
his procedural due process rights as a matter of law.7
Second, we must decide whether the Defendants’
conduct was objectively unreasonable in light of
clearly established law at the time of the incident.8
“Courts have discretion to decide which prong of the

2

Wallace v. Cty. of Comal, 400 F.3d 284, 288 (5th Cir.

3

Fed. R. Civ. P. 56(a).

4

Kinney v. Weaver, 367 F.3d 337, 346 (5th Cir. 2004) (en

5

Wagner v. Bay City, 227 F.3d 316, 320 (5th Cir. 2000).

6

Id.

7

Hare v. City of Corinth, 135 F.3d 320, 325 (5th Cir.

8

Id.

2005).

banc).

1998).

9a
qualified-immunity analysis to address first.”9 While
courts should “think hard” before addressing the
constitutional question, “it remains true that following
the two-step sequence—defining constitutional rights
and only then conferring immunity—is sometimes
beneficial to clarify the legal standards governing
public officials.”10
B. Walsh’s Procedural Due Process Rights
“Procedural due process imposes constraints on
governmental decisions which deprive individuals of
‘liberty’ or ‘property’ interests within the meaning of
the Due Process Clause of the Fifth or Fourteenth
Amendment.”11 The Supreme Court has held that
procedural due process is implicated when a
university terminates a public employee dismissible
only for cause.12 In determining what process is due,

Morgan v. Swanson, 659 F.3d 359, 371 (5th Cir. 2011)
(en banc).
9

10

Camreta v. Greene, 563 U.S. 692, 707 (2011).

11

Mathews v. Eldridge, 424 U.S. 319, 332 (1976).

Gilbert v. Homar, 520 U.S. 924, 928–29 (1997);
Mathews, 424 U.S. at 333. Defendants try to draw a distinction
between Walsh, a contract employee who could only be fired for
cause, and a tenured employee. While the Court in Gilbert
addressed “tenured” professors, it also stressed that “public
employees who can be discharged only for cause have a
constitutionally protected property interest in their tenure.” 520
U.S. at 928–29 (emphasis added). See also Bd. of Regents of State
Colleges v. Roth, 408 U.S. 564, 577 (1972) (teacher recently hired
without tenure or a formal contract, but nonetheless with a
clearly implied promise of continued employment, had a
property interest safeguarded by due process). The Supreme
Court has also held that due process may be implicated when
termination “might seriously damage [a professor’s] standing
and associations in his community.” Id. at 573.
12

10a
“[i]t is not the role of the federal courts to set aside
decisions of school administrators which the court
may view as lacking a basis in wisdom or
compassion.”13
In Levitt v. University of Texas at El Paso, we
held that due process protections for a terminated
professor include the following:
(1) be advised of the cause for his termination
in sufficient detail so as to enable him to show
any error that may exist; (2) be advised of the
names and the nature of the testimony of the
witnesses against him; (3) a meaningful
opportunity to be heard in his own defense
within a reasonable time; and (4) a hearing
before a tribunal that possesses some academic
expertise and an apparent impartiality toward
the charges.14
We evaluate due process using a sliding scale
the Supreme Court first introduced in Mathews v.
Eldridge.15 Courts must balance (1) “the private
interest that will be affected by the official action”; (2)
“the risk of an erroneous deprivation of such interest
through the procedures used, and the probable value,
if any, of additional or substitute procedural
safeguards”; and (3) “the Government’s interest,
including the function involved and the fiscal and
administrative burdens that the additional or
substitute procedural requirement would entail.”16

13

Wood v. Strickland, 420 U.S. 308, 326 (1975).

14

759 F.2d 1224, 1228 (5th Cir. 1985).

15

Mathews, 424 U.S. at 335.

16

Id.

11a
At issue here is whether Walsh had a
meaningful opportunity to be heard and whether the
University’s tribunal was impartial. Walsh argues
Defendants denied him his due process rights
because: (1) Defendants permitted an allegedly biased
committee member to hear his claim, and (2)
Defendants did not allow him to confront his accuser
and introduce photos from the evening, and instead
relied on hearsay testimony from the University’s
investigator.
1. The Right to a Fair Tribunal
Walsh alleged that one of the Committee
members, defendant Damon Schranz, was not
impartial because he served as Student #1’s
preceptor, and spent time with her weekly in various
clinics. The court denied summary judgment on that
ground pending further discovery regarding the
alleged bias (thereby granting Walsh’s Rule 56(d)
motion).
The Supreme Court has emphasized that a
“fair trial in a fair tribunal is a basic requirement of
due process.”17 Yet “bias by an adjudicator is not
lightly established.”18 “The movant must overcome
two strong presumptions: (1) the presumption of
honesty and integrity of the adjudicators; and (2) the
presumption that those making decisions affecting
the public are doing so in the public interest.”19

Withrow v. Larkin, 421 U.S. 35, 46 (1975) (quoting In
re Murchison, 340 U.S. 133, 136 (1955)).
17

18 Valley v. Rapides Par. Sch. Bd., 118 F.3d 1047, 1052–
53 (5th Cir. 1997).
19

Id.

12a
We have held that procedural due process
requires proof of actual bias.20 “Alleged prejudice of
university hearing bodies must be based on more than
mere speculation and tenuous inferences.”21 Walsh
alleged that only one member of the eight-person
Committee knew Student #1 from serving as one of
her preceptors in medical school. That one Committee
member knew the accuser in a university proceeding
is not enough to establish a due process claim of bias
in this instance. We find no merit to this argument.
2. The Right to Confront One’s Accuser in
a University Proceeding
Walsh argues next that Defendants denied him
due process by not affording him the right to confront
and cross-examine his accuser before the Committee.
Defendants argue that the district court erred in
agreeing with Walsh’s argument. The court concluded
that the Due Process Clause required Walsh be
given the right to cross-examine his accuser to allow
the Committee to evaluate her credibility; crossexamining Kaiser was not a reasonable substitute.22

Levitt v. Univ. of Tex. at El Paso, 759 F.2d 1224, 1228
(5th Cir. 1985).
20

21

Duke v. N. Tex. State Univ., 469 F.2d 829, 834 (5th Cir.

1972).
Walsh was found in violation of § 05.205(c) of the
University’s Policies. The policy states: “Unwelcome sexual
advances, requests for sexual favors, and other verbal or
physical conduct of a sexual nature (regardless of gender), even
if carried out under the guise of humor, constitute a violation of
this policy when such conduct has the purpose or effect of
substantially interfering with an individual’s academic or
professional performance or creating an intimidating, hostile or
offensive employment, or educational environment.”
22

13a
The district court then held Walsh’s right to crossexamine Student #1 was clearly established at the
time of the violation.
The first prong of qualified immunity requires
us to address whether Walsh suffered a deprivation of
procedural due process by not being permitted to
cross-examine his accuser. At the outset, we recognize
that the “interpretation and application of the Due
Process Clause are intensely practical matters
and . . . ‘(t)he very nature of due process negates any
concept of inflexible procedures universally applicable
to every imaginable situation.’”23 Indeed, “[t]he
nature of the hearing should vary depending upon the
circumstances of the particular case.”24
To assess Walsh’s claim, we turn to the
Mathews v. Eldridge sliding scale. The first Mathews
factor, Walsh’s private interest, is significant: the loss
of his employment. “[T]he denial of public
employment is a serious blow to any citizen.”25
Moreover, the termination for sexual assault
necessarily impacts future employment opportunities
as an academic in a medical school, as a charge of

Goss v. Lopez, 419 U.S. 565, 578 (1975) (quoting
Cafeteria Workers v. McElroy, 367 U.S. 886, 895 (1961)).
23

24 Dixon v. Ala. State Bd. of Educ., 294 F.2d 150, 158 (5th
Cir. 1961).

Bd. of Regents of State Colleges v. Roth, 408 U.S. 564,
589 (1972) (Marshal, J., dissenting). See also Cleveland Bd. of
Educ. v. Loudermill, 470 U.S. 532, 543 (1985) (“the significance
of the private interest in retaining employment cannot be
gainsaid”); Jones v. La. Bd. of Sup’rs of Univ. of La. Sys., 809
F.3d 231, 237 (5th Cir. 2015) (terminated professor’s interest in
retaining job was “significant”).
25

14a
sexual harassment inevitably tarnishes Walsh’s
reputation.26
The third Mathews factor, the University’s
interest, is also significant. Defendants argue the
University has three public interests: (1) preserving
the University’s resources to serve its primary
function of education, (2) protecting vulnerable
witnesses, and (3) providing a safe environment for
other members of the faculty and student body. We
have recognized the importance of all three.
“To impose . . . even truncated trial-type
procedures might well overwhelm administrative
facilities in many places and, by diverting resources,
cost more than it would save in educational
effectiveness.”27 We have also held that universities
have a “strong interest in the ‘educational process,’
including maintaining a safe learning environment

See, e.g., Bd. of Regents of State Colleges, 408 U.S. at
574 (quoting Joint Anti-Fascist Refugee Comm. v. McGrath, 341
U.S. 123, 185 (1951) (Jackson, J., concurring)) (“[t]o be deprived
not only of present government employment but of future
opportunity for it certainly is no small injury”); cf. id. (reasoning
“there is no suggestion that the State, in declining to re-employ
the respondent, imposed on him a stigma or other disability that
foreclosed his freedom to take advantage of other employment
opportunities”). See also Ludwig v. Bd. of Trustees of Ferris State
Univ., 123 F.3d 404, 410 (6th Cir. 1997) (“An injury to a person’s
reputation, good name, honor, or integrity constitutes the
deprivation of a liberty interest when the injury occurs in
connection with an employee’s termination.”).
26

Goss, 419 U.S. at 583. See also Gorman v. Univ. of R.I.,
837 F.2d 7, 15 (1st Cir. 1988) (“[I]t is no exaggeration to state
that the undue judicialization of an administrative hearing,
particularly in an academic environment, may result in an
improper allocation of resources, and prove counterproductive.”).
27

15a
for all its students, while preserving its limited
administrative resources.”28 If Student #1 had to
testify in front of the Committee, Defendants contend,
this would discourage future students from coming
forward. We have acknowledged the importance of
supporting victims of sexual harassment: “Only when
sexual harassment is exposed to scrutiny can it be
eliminated; thus it makes sense to encourage victims
of sexual harassment to come forward because . . .
they are often the only ones, besides the perpetrators,
who are aware of sexual harassment.”29
This, then, leads us to the second Mathews
factor: the risk of erroneously depriving Walsh of an
important interest and whether additional or
substitute safeguards could be implemented to
mitigate the concern about having a student being
confronted by her professor in front of a committee of
his peers. Walsh underscores that the risk of
erroneous deprivation of his rights, absent the
Committee hearing Student #1’s account more
directly, is great. We agree that this is a particularly
important interest in this case when the entire
hearing boiled down to an issue of credibility. It was
Walsh’s word (mutual flirtation) versus Student #1’s
(unwanted harassment).30

Plummer v. Univ. of Houston, 860 F.3d 767, 773 (5th
Cir. 2017), as revised (June 26, 2017).
28

29 E.E.O.C. v. Boh Bros. Const. Co., 731 F.3d 444, 463
n.19 (5th Cir. 2013) (en banc) (brackets omitted) (quoting Adams
v. O’Reilly Auto., Inc., 538 F.3d 926, 933 (8th Cir. 2008)).

This case poses a stark contrast to Plummer, 860 F.3d
at 770–71, where two students were expelled after sexually
assaulting a third student. Video and photos corroborated the
allegations, but the third student (too inebriated to recall the
events) was neither deposed nor asked to testify at the hearings.
30

16a
In this case, where credibility was critical and
the sanction imposed would result in loss of
employment and likely future opportunities in
academia, it was important for the Committee to hear
from Student #1 and Walsh should have had an
opportunity to test Student #1’s credibility. The
University’s interests in protecting victims of sexual
harassment and assault are important too. But we are
persuaded that the substitute to cross-examination
the University provided Walsh—snippets of quotes
from Student #1, relayed by the University’s
investigator—was too filtered to allow Walsh to test
the testimony of his accuser and to allow the
Committee to evaluate her credibility, particularly
here where the Committee did not observe Student
#1’s testimony. We conclude in this circumstance that
the Committee should have heard Student #1’s
testimony.31 As Student #1 was a graduate student

Id. at 772. We held that cross-examining the amnesiac third
student “could [not] have otherwise altered the impact of the
videos and photos.” Id. at 775–76. Neither the third student’s
testimony nor cross-examination “would have suggested that she
consented to the degrading and humiliating depictions of her in
the videos and photos,” and the testimony “could [not] have
otherwise altered the impact of the videos and photos.” Id. at
776.
Defendants argue that this court should not recognize
Walsh’s claim because he did not ask to confront Student #1
during the hearing. Walsh’s explanation for this is compelling—
any attempt to secure testimony would have obviously been
futile, as the University had already denied his request to
introduce photos of Student #1 in efforts to protect her
anonymity. Furthermore, the University denied Walsh during
the hearing of the opportunity to have counsel, who could have
advised him to preserve any such claim. And in any event, Walsh
made his objections to the University’s procedures and its
violation of his due process clear throughout the hearing.
31

17a
presumably in her mid-twenties, we believe that
being subjected to additional questions from the
Committee would not have been so unreasonable a
burden as to deter her and other similar victims of
sexual harassment from coming forward.
We are not persuaded, however, that cross
examination of Student #1 by Walsh personally would
have significantly increased the probative value of the
hearing. Such an effort might well have led to an
unhelpful contentious exchange or even a shouting
match. Nonetheless, the Committee or its
representative should have directly questioned
Student #1, after which Walsh should have been
permitted to submit questions to the Committee to
propound to Student #1.
In this respect, we agree with the position
taken by the First Circuit “that due process in the
university disciplinary setting requires ‘some
opportunity for real-time cross-examination, even if
only through a hearing panel.’”32 We stop short of
requiring that the questioning of a complaining
witness be done by the accused party, as “we have no
reason to believe that questioning . . . by a neutral
party is so fundamentally flawed as to create a
categorically unacceptable risk of erroneous
deprivation.”33
Because we have concluded Walsh suffered a
violation of his procedural due process rights, we
proceed to the second prong of the qualified immunity
analysis: was Walsh’s constitutional right clearly

Haidak v. Univ. of Mass.-Amherst, 933 F.3d 56, 69 (1st
Cir. 2019) (citation omitted).
32

33

Id.

18a
established? Qualified immunity “provides ample
protection to all but the plainly incompetent or those
who knowingly violate the law.”34 “This is a
demanding standard.”35 “[W]e do not deny immunity
unless ‘existing precedent must have placed the . . .
constitutional question beyond debate.’”36 Although
we do not require a case “directly on point . . . there
must be adequate authority at a sufficiently high level
of specificity to put a reasonable official on notice that
his conduct is definitively unlawful.”37 In other
words, the “sine qua non of the clearly-established
inquiry is ‘fair warning.’”38
Walsh is correct that we have clearly
established that due process for a terminated
professor includes “a meaningful opportunity to be
heard in his own defense.”39 However, none of our case
law speaks directly to the procedures necessary to
protect a professor’s interest in avoiding careerdestruction after being accused of sexual harassment.
Levitt v. University of Texas at El Paso, our only due
process case concerning a professor terminated for
sexual harassment, provides us little clarity.40 In

34

Malley v. Briggs, 475 U.S. 335, 341 (1986).

35

Vincent v. City of Sulphur, 805 F.3d 543, 547 (5th Cir.

2015).
Morgan v. Swanson, 659 F.3d 359, 371 (5th Cir. 2011)
(en banc) (quoting Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011)).
36

37

Vincent, 805 F.3d at 547.

Swanson, 659 F.3d at 372 (quoting Hope v. Pelzer, 536
U.S. 730, 741 (2002)).
38

39 Levitt v. Univ. of Tex. at El Paso, 759 F.2d 1224, 1228
(5th Cir. 1985).
40

Id. at 1224.

19a
Levitt, the University’s rules permitted the professor
to confront witnesses (though it is unclear if these
witnesses included his accusers).41 The professor
alleged the University violated his due process rights
in failing to follow its rules; this included the
University denying him the right to confront
witnesses for two days when he was absent from the
hearing due to illness.42 We held that the University
gave the professor all due process to which he was
entitled despite its failure to follow its rules.43 But we
did not otherwise address the right to confront
witnesses or directly hear from the accuser.
The only other analogous case is Plummer v.
University of Houston, which centered on a university
hearing for two students expelled for sexual assault.44
In that 2017 opinion, we explicitly acknowledged that
we have not yet determined “whether confrontation
and cross-examination would ever be constitutionally
required in student disciplinary proceedings.”45
Other, less analogous cases from our circuit
address the necessity of confrontation in
administrative hearings more generally—all prove
similarly inconclusive. Our first case addressing the
issue of confrontation in university hearings came in
1961, in a suit concerning student expulsion for


41

Id. at 1226 n.1.

42

Id. at 1229 n.6.

43

Id. at 1229.

44

860 F.3d at 767.

Plummer v. Univ. of Houston, 860 F.3d 767, 775 (5th
Cir. 2017), as revised (June 26, 2017).
45

20a
unidentified misconduct.46 We held that the right to
be heard does not require “a full-dress judicial
hearing, with the right to cross-examine witnesses.”47
Ten years later, we observed that cross-examination
in administrative hearings “depends upon the
circumstances.”48
In 1986, we stated that “[w]hen an
administrative termination hearing is required,
federal constitutional due process demands either an
opportunity for the person charged to confront the
witnesses against him and to hear their testimony or
a reasonable substitute for that opportunity.”49 The
district court relied on this language to conclude that
Defendants violated Walsh’s constitutional rights,
and that those rights were clearly established. Yet
this language is dicta—the court was addressing
whether the plaintiff had been advised of the names
and nature of the testimony against him, not if he had
a meaningful opportunity to be heard—and the court
did not elaborate on what qualified as a “reasonable
substitute.”50


46

Dixon v. Ala. State Bd. of Educ., 294 F.2d 150 (5th Cir.

47

Id. at 159.

1961).
Woodbury v. McKinnon, 447 F.2d 839, 844 (5th Cir.
1971). In that case, the court held that because of the nature of
the charges (professional competence of a terminated doctor) and
the nature of the hearing (informal discussion of medical records
with no witnesses), cross-examination was not necessary. Id.
48

49 Wells v. Dall. Indep. Sch. Dist., 793 F.2d 679, 683 (5th
Cir. 1986).
50

Id.

21a
Five years later, we again emphasized that we
had not fully explored the scope of procedural due
process guaranteed to terminated faculty members.51
In that case, plaintiffs requested the right to have
presence of counsel, cross-examine adverse witnesses,
present evidence, and obtain a written record.52 We
held that in our past faculty termination cases, “the
aggrieved instructor was afforded a relatively formal
procedure as a matter of state law or institutional
policy. We believe that the due process clause, of its
force, requires little formality.”53
Thus, as the above discussion makes clear,
before today we have not explicitly held that, in
university disciplinary hearings where the outcome
depends on credibility, the Due Process Clause
demands the opportunity to confront witnesses or
some reasonable alternative. Our sister circuits,
meanwhile, are split on this issue.54 And the

Tex. Faculty Ass’n v. Univ. of Tex. at Dall., 946 F.2d
379 (5th Cir. 1991).
51

52

Id. at 389.

53 Id. Because the decision to terminate faculty was
incident to the termination of an entire academic program, the
court found that the right to confront adverse witnesses would
do little to aid the truth-seeking process. Id.

Morgan v. Swanson, 659 F.3d 359, 372 (5th Cir. 2011)
(en banc) (“Where no controlling authority specifically prohibits
a defendant’s conduct, and when the federal circuit courts are
split on the issue, the law cannot be said to be clearly
established.”). The Second, Eighth, and Eleventh Circuits have
held that due process does not generally include the opportunity
to cross-examine in university proceedings. See Nash v. Auburn
Univ., 812 F.2d 655, 664 (11th Cir. 1987); Riggins v. Bd. of
Regents of Univ. of Neb., 790 F.2d 707, 712 (8th Cir. 1986);
Winnick v. Manning, 460 F.2d 545, 549 (2d Cir. 1972) (though
noting cross-examination may be essential to a fair hearing
54

22a
Department of Education recently revised Title IX
regulations to require universities to permit
crossexamination
of
all
witnesses,
further
55
demonstrating how in flux this right is.
Nor can we hold, as Walsh contends, that “a
meaningful opportunity to be heard” should have put
Defendants on notice that their actions were
unlawful. The clearly established standard “requires
a high ‘degree of specificity.’”56 Our case law does not
make clear that the University’s use of an
investigator to interview the accused student and face
cross-examination at the hearing violated Walsh’s
due process rights. Walsh presents us with no binding
or persuasive authority for the proposition that the
Committee was required to give Walsh the
opportunity to test Student #1’s version of the events
more than it did.
Because of our conflicting, inconclusive
language in past cases, we cannot find that
Defendants “knowingly violate[d] the law.”57 And,
because of all the opportunities Defendants afforded

when credibility is at issue). The First, Sixth, and Tenth Circuit
have held the opposite. See Haidak v. Univ. of Mass.-Amherst,
933 F.3d 56, 69 (1st Cir. 2019) (with the caveat that the accused
may not be allowed to do the confronting); Doe v. Baum, 903 F.3d
575, 581 (6th Cir. 2018); Tonkovich v. Kan. Bd. of Regents, 159
F.3d 504, 517–18 (10th Cir. 1998).
See Summary of Major Provisions of the Department of
Education’s Title IX Final Rule, DEPARTMENT OF
EDUCATION (May 13, 2020), page 7, https://www2.ed.gov/about
/offices/list/ocr/docs/titleix-summary.pdf.
55

56 District of Columbia v. Wesby, 138 S. Ct. 577, 590
(2018) (quoting Mullenix v. Luna, 136 S. Ct. 305, 309 (2015)).
57

Malley v. Briggs, 475 U.S. 335, 341 (1986).

23a
Walsh to be heard, we cannot conclude Defendants
were “plainly incompetent” in denying Walsh the
right to cross-examine Student #1 or some substitute
method to test her testimony.58 The district court,
therefore, erred in denying Defendants’ motion for
summary judgment on the basis of qualified
immunity for these claims.59
III. CONCLUSION
Defendants are entitled to qualified immunity.
Therefore, the district court’s order denying
Defendants’ motion for summary judgment on the
basis of qualified immunity is REVERSED, and
judgment is RENDERED in favor of the Defendants.

58

Id.

Walsh also argues that the Committee’s refusal to
admit four photos taken of Walsh, Student #1, and the other
attendees during the evening in question violated his due
process rights. The four posed photos depict generally that the
attendees were having fun, and one of the photos appears to
show Student #1 leaning into Walsh in the group photo. But no
record was established about when in the evening the photos
were taken in relation to when Walsh’s alleged improper
behavior occurred. As we noted above, the Committee should
have examined Student #1 and given her an opportunity to
explain how the photos supported her testimony that she was
uncomfortable with Walsh’s actions. However, we do not agree
with the district court that the Committee’s decision to exclude
the photos was a violation of Walsh’s clearly established due
process rights. See Shawgo v. Spradlin, 701 F.2d 470, 480 (5th
Cir. 1983) (concluding that although the Commission’s
evidentiary rulings “may indeed have hindered [the plaintiff’s]
presentation of the defense of selective discipline with respect to
conduct that was a common practice in the [Police] Department,”
the court was “unable to say that the Commission’s rulings were
arbitrary”).
59

24a
[ENTERED: June 20, 2019]
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
RALPH CLAY WALSH, JR. §
§
VS.
§
§
LISA HODGE, ET AL.
§

ACTION NO.
4:17-CV-323-Y

ORDER PARTIALLY GRANTING MOTION FOR
SUMMARY JUDGMENT
Pending before the Court is Defendants’
Motion for Summary Judgment on Qualified
Immunity (doc. 32). After review of the motion,
related briefs, and applicable law, the Court
concludes that the motion should be and hereby is
PARTIALLY GRANTED.
I.

Facts1

Plaintiff Ralph Claiborne Walsh Jr. is a doctor
in osteopathic manipulative medicine. From April 1,
2011, to April 14, 2015, he was employed as a nontenured assistant/associate professor in the
department of Osteopathic Manipulative Medicine at
the University of North Texas Health Science Center
(“UNTHSC”). Walsh’s employment was governed by a
contract with UNTHSC providing that he could be
terminated only for good cause.

Except where otherwise indicated, the facts set out in
this section are taken from Walsh’s declaration. (Walsh’s App.
(doc. 39) 1-4.)
1

25a
On October 24, 2014, Walsh, two other faculty
members, and two medical students attended a
formal banquet as part of a medical conference in
Seattle, Washington. The banquet included a
reception, dinner, and dancing. The mood was festive
and boisterous, and all of the UNTHSC attendees
consumed alcohol while at the banquet.
During the evening, Walsh interacted
frequently and danced with one of the medical
students. Walsh alleges that at one point when he
touched the student on the small of her back, she
reached behind her back and grabbed, squeezed, and
held his hand. Flattered, Walsh continued to hold the
student’s hand. They continued interacting for much
of the evening, with the student allegedly initiating
further hand-holding.
After the dance, the group adjourned to the
hotel bar. As the group was walking to the bar, Walsh
asked the student where she was staying and,
because she had been drinking, asked her if she
wanted him to walk her to her room. She responded
“Maybe, I don’t know; I’ll let you know.” (Walsh’s App.
(doc. 39) 2.) Immediately thereafter, they got on an
escalator and the student grabbed Walsh’s hand and
pulled him toward her. The evening ultimately ended
fifteen to thirty minutes later when one of the
physicians became ill, and the student walked the ill
physician back to her room.
The following week, the student filed a sexualharassment complaint under Title IX against Walsh
with UNTHSC. UNTHSC hired attorney Lisa Kaiser
as an outside investigator to investigate the student’s
complaint. As part of her investigation, Kaiser

26a
interviewed Walsh. Walsh declares that, during the
interview, Kaiser put him on the defensive, and her
demeanor suggested to Walsh that she had already
reached a conclusion before hearing his side of the
story. During the interview, Walsh admitted to the
flirtation and that he had exercised bad judgment, but
denied having received any indication from the
student that she was uncomfortable. Indeed, he told
Kaiser that the student had been smiling and
laughing throughout the evening.
Walsh learned during the interview that the
student claimed he had touched her buttocks and
invited her to his hotel room. He denied both
accusations and told Kaiser what he contends
actually happened. Regarding the alleged buttockstouching accusation, Walsh told Kaiser that his hand
was on the chair next to him and the student came
over and sat on the chair while his hand was resting
there. He also told her that the student had initiated
all physical contact with Walsh. Regarding the
alleged proposition, Walsh indicated that he had
merely asked the student if she wanted him to walk
her to her room since she had been drinking.
On December 22, 2014, Walsh received a letter
from David Mason, the chair of UNTHSC’s
Department of Osteopathic Manipulative Medicine,
informing him that, based upon the findings of
Kaiser’s investigation, he was proposing a sanction of
termination. Walsh appealed that decision to the
dean, who upheld the decision. As a result, on
January 5, 2015, Walsh requested a hearing before
the Faculty and Grievance Committee (“the
Committee”) to challenge the findings of the
investigation and the proposed termination. While

27a
the hearing was pending, Walsh continued to be
employed by the UNTHSC and received his salary
and benefits.
On February 10, Walsh received a letter from
defendant Patricia Gwirtz, the chair of the
Committee, informing him that “the charges of
faculty misconduct derive from allegations of sexual
harassment that are fully described in a Complaint
Investigation Report dated November 25, 2014
prepared for the UNT Health Sciences Center.” (Defs.’
Third Am. App. (doc. 45) 20.) Gwirtz further informed
him that he could make an appointment to review the
report and make notes from it but would not be
provided with a copy of the report. Gwirtz also
confirmed that the names of the complainant and
witnesses were redacted from the copy of the report
she had received and that he could review.
Walsh made an appointment to review the
report, and upon so doing realized that Kaiser had
omitted many of the statements he made during his
interview with her. The report did not reflect his
contention that the student had initiated the handholding; that his touch of her buttocks resulted from
her sitting on this hand; that she had initiated other
physical contact during the evening; and that she had
been smiling and laughing the entire evening.
Instead, Kaiser’s report reflected that Walsh had
essentially confirmed the student’s account of the
evening.
The hearing was held on March 23, 2015.
Gwirtz presided over the hearing, and the Committee
was comprised of most of the defendants, including
Damon Schranz. Unbeknownst to Walsh at the time

28a
of the hearing, Schranz “acted as a ‘preceptor’ for [the]
[s]tudent, which meant that he was her key advisor
and spent approximately 40 hours per week with her
in various clinics.” (Walsh’s Resp. (doc. 38) 9.)
The student was not required to testify at the
hearing. Rather, Kaiser testified regarding the
allegations made by the student. Walsh attempted to
introduce contemporaneous photos taken at the
banquet showing the student with her arms around
Walsh and otherwise smiling and exhibiting no
discomfort or distress, but Gwirtz refused to admit
the photographs.
After the hearing, the Committee concluded
that Walsh violated Faculty Policy 5.205, which
provides that “[u]nwelcome sexual advances, requests
for sexual favors, and other verbal or physical conduct
of a sexual nature (regardless of gender) . . .
constitute[] a violation of this policy when: a)
submission to or tolerance of such conduct is made
either explicitly or implicitly a term or condition of an
individual’s employment or education; or b)
submission to or rejection of such conduct by an
individual is used as a basis for academic or
employment decisions . . . affecting the individual; or
c) such conduct has the purpose or effect of
substantially interfering with an individual’s
academic or professional performance or creating an
intimidating, hostile, or offensive employment, or
educational environment.” (Defs.’ Third Am. App.
(doc. 45) 345.) Thereafter, Walsh appealed the
Committee’s decision to the UNTHSC’s president,
Michael Williams, but Williams upheld the decision.
Williams notified Walsh by letter dated April 16,

29a
2014, that he was being terminated, effective
immediately.
As a result, Walsh filed this action under 42
U.S.C. § 1983, asserting individual claims against
Gwirtz, Williams, and the members of the
Committee.2 Walsh’s amended complaint alleges that
Defendants violated his constitutional rights to
procedural due process and equal protection under
the Fourteenth Amendment. The Court previously
dismissed
Walsh’s
equal-protection
claim.
Defendants now seek summary judgment on Walsh’s
due-process claim, contending that they are entitled
to qualified immunity.3
II.
Standard of Review
A.

Summary Judgment

When the record establishes “that there is no
genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law,”
summary judgment is appropriate. Fed. R. Civ. P.
56(a). “[A dispute] is ‘genuine’ if it is real and
substantial, as opposed to merely formal, pretended,
or a sham.” Bazan v. Hidalgo Cnty., 246 F.3d 481, 489
(5th Cir. 2001) (citation omitted). A fact is “material”
if it “might affect the outcome of the suit under
governing law.” Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986).

Walsh’s claims against two of the original defendants,
Patrick Clay and Yasser Salem, were dismissed on October 31,
2018, by agreement of the parties.
2

Defendants’ motion urges that all defendants are
entitled to immunity for the same reasons, so the Court has not
distinguished among them in its analysis.
3

30a
To demonstrate that a particular fact cannot be
genuinely in dispute, a defendant movant must (a)
cite to particular parts of materials in the record (e.g.,
affidavits, depositions, etc.), or (b) show either that (1)
the plaintiff cannot produce admissible evidence to
support that particular fact, or (2) if the plaintiff has
cited any materials in response, show that those
materials do not establish the presence of a genuine
dispute as to that fact. Fed. R. Civ. P. 56(c)(1).
Although the Court is required to consider only the
cited materials, it may consider other materials in
the record. See Fed. R. Civ. P. 56(c)(3). Nevertheless,
Rule 56 “does not impose on the district court a duty
to sift through the record in search of evidence to
support a party’s opposition to summary judgment.”
Skotak v. Tenneco Resins, Inc., 953 F.2d 909, 915-16
& n.7 (5th Cir.), cert. denied, 506 U.S. 825 (1992).
Instead, parties should “identify specific evidence in
the record, and . . . articulate the ‘precise manner’ in
which that evidence support[s] their claim.” Forsyth
v. Barr, 19 F.3d 1527, 1537 (5th Cir. 1994).
In evaluating whether summary judgment is
appropriate, the Court “views the evidence in the light
most favorable to the nonmovant, drawing all
reasonable inferences in the nonmovant’s favor.”
Sanders-Burns v. City of Plano, 594 F.3d 366, 380 (5th
Cir. 2010) (citation omitted) (internal quotation
marks omitted). “After the non-movant has been
given the opportunity to raise a genuine factual
[dispute], if no reasonable juror could find for the nonmovant, summary judgment will be granted.” Byers v.
Dallas Morning News, Inc., 209 F.3d 419, 424 (5th
Cir. 2000) (citing Celotex Corp. v. Catrett, 477 U.S.
317, 322 (1986)).

31a
B.

Qualified Immunity

“The doctrine of qualified immunity protects
government officials ‘from liability for civil damages
insofar as their conduct does not violate clearly
established statutory or constitutional rights of which
a reasonable person would have known.’” Pearson v.
Callahan, 555 U.S. 223, 231 (2009) (quoting Harlow
v. Fitzgerald, 457 U.S. 800, 818 (1982)). “The qualified
immunity inquiry thus involves two prongs that must
be answered affirmatively for an official to face
liability: (1) whether the defendant’s conduct violated
a constitutional right, and (2) whether the defendant’s
conduct was objectively unreasonable in light of clearly
established law at the time of the violation.” Terry v.
Hubert, 609 F.3d 757, 761 (5th Cir. 2010) (citing
Pearson, 129 U.S. at 816). The Court may begin its
inquiry with either prong. Pearson, 555 U.S. at 236.
“Put simply, qualified immunity protects ‘all but the
plainly incompetent or those who knowingly violate
the law.’” Mullenix v. Luna, 136 S. Ct. 305, 308 (2015)
(quoting Malley v. Briggs, 475 U.S. 335, 341 (1986)).
“When a defendant invokes qualified immunity,
the burden is on the plaintiff to demonstrate the
inapplicability of the defense.” McClendon v. City of
Columbia, 305 F.3d 314, 323 (5th Cir. 2002) (en banc).
The assertion of such a “defense alters the usual
summary judgment burden of proof. . . . Once an
official pleads the defense, the burden then shifts to
the plaintiff, who must rebut the defense by
establishing a genuine fact issue as to whether the
official’s allegedly wrongful conduct violated clearly
established law.” Brown v. Callahan, 623 F.3d 249,
253 (5th Cir. 2010), cert. denied, 563 U.S. 1021 (2011).
But, being the non-moving party, all inferences from

32a
the admissible evidence are drawn in the plaintiff’s
favor. See McClendon, 305 F.3d at 323; Brown, 623
F.3d at 253.
III.
A.

Analysis

Constitutional Violation

In order to satisfy his burden, Walsh must
point to admissible evidence tending to demonstrate
that the defendants violated his Fourteenth
Amendment due-process rights in conjunction with
his termination. In the context of public employment,
the Supreme Court has held that the due-process
clause “requires ‘some kind of hearing’ prior to the
discharge of an employee who has a constitutionally
protected property interest in his employment.”
Cleveland Bd. of Educ. v. Loudermill, 470 U.S. 532,
542 (1985). “The formality and procedural requisites
for the hearing can vary, depending upon the
importance of the interests involved and the nature of
the subsequent proceedings.”4 Id. at 546. Although a

In Loudermill, the Court noted that the school-district
employees were entitled to “a full post-termination hearing”
under state law. 470 U.S. at 546. There is no indication from
either party that Walsh was entitled to any additional hearing
regarding his termination other than his pre-termination
hearing before the Committee. Indeed, it appears that the
decision of UNTHSC’s president, Michael Williams, to uphold
the Committee’s decision and terminate Walsh was final. (Defs.’
Third Am. App. (doc. 45) 351.) An elaborate pre-termination
hearing is not required if it creates an “excessive burden . . . ‘on
the government’s interest in quickly removing an unsatisfactory
employee.’ But in the event of minimal pre[-]termination
safeguards, the substantial private interest one has in not being
deprived of his livelihood requires a full hearing after
termination.” Schaper v. City of Huntsville, 813 F.2d 709, 716
(5th Cir. 1987) (quoting Loudermill, 470 U.S. at 546).
4

33a
full evidentiary hearing prior to termination
generally is not required, the notice and opportunity
to be heard must be meaningful. See Matthews v.
Eldridge, 424 U.S. 319, 343 (1976); Stone v. F.D.I.C.,
179 F.3d 1368, 1377 (Fed. Cir. 1999). The parties
agree that Walsh was entitled to due process prior to
being terminated. Instead, they dispute whether
Walsh was given the process that he was due.
The pre-termination hearing “should be an
initial check against mistaken decisions--essentially,
a determination of whether there are reasonable
grounds to believe that the charges against the
employee are true and support the proposed action.”
Loudermill, 470 U.S. at 545-56. Due process generally
is satisfied where the public employee is provided
with “oral or written notice of the charges against
him, an explanation of the employer’s evidence, and
an opportunity to present his side of the story.” Id.;
see also Levitt v. Monroe, 590 F. Supp. 902, 906-07
(W.D. Tex. 1984) (“The right of a state university
faculty member to procedural due process in
connection with his termination includes (1) the right
to be advised of the cause for his termination in
sufficient detail to fairly enable him to show any error
that may exist; (2) the right to be advised of the names
and the nature of the testimony of the witnesses
against him; (3) a meaningful opportunity to be heard
in his own defense within a reasonable time; and (4)
a hearing before a tribunal that possesses some
academic expertise and also possesses an apparent
impartiality toward the charges.”) (citing Ferguson
v. Thomas, 430 F.2d 852, 856 (5th Cir. 1970)). This is
all that is guaranteed under the Constitution;
a university’s violation of its own rules “may
constitute a breach of contract or violation of state

34a
law, but unless the conduct trespasses on federal
constitutional safeguards, there is no constitutional
deprivation.”5 Levitt v. Univ. of Tex., 759 F.2d 1224,
1230 (5th Cir. 1985); see also Wells v. Dallas Indep.
Sch. Dist., 793 F.2d 679, 682 (5th Cir. 1986) (“If a
state or local government demands that its officials
afford a more elaborate process than the Constitution
requires, its demands alone cannot expand the
boundaries of what concerns us here: federal
constitutional due process.”).
1. Notice of Cause for Termination
Initially, Walsh contends that he was not
adequately apprised of the cause for his proposed
termination or provided with a reasonable
opportunity to prepare for the hearing before the
Committee. Specifically, Walsh complains about
defendant Gwirtz’s refusal to provide him with a
complete copy of Kaiser’s report and notes that she
permitted him to review only a redacted version of the
report and take notes from his review. Walsh
contends that the redacted report “contains
significant gaps (sometimes multiple lines)” and that
“[w]here smaller areas are redacted, what remains is
sometimes unclear.” (Walsh’s Resp. Br. (doc. 38) 15.)
Walsh received notice of the basis for his
proposed termination and the date and location of the
alleged improper incident upon which the charges

Walsh’s First Amended Complaint does not assert a
breach-of-contract claim or any other claim under state law.
Thus, to the extent Walsh complains that Defendants did not
comply with UNTHSC’s policies, his claims fail except to the
extent those requirements coincide with constitutional dueprocess guarantees.
5

35a
were based in a letter from his department chair,
David Mason, dated December 22, 2014. That letter
provides that Mason recommended Walsh’s
termination in light of the findings of an internal
investigation that he had “sexually harassed a female
student” in violation of UNTHSC’s “Sexual
Harassment Policy No 05.205.”6 (Defs.’ Third Am.
App. (doc. 45) 15.) The letter further indicates that the
investigation inquired about “events that occurred on
the evening of October 24, 2014[,] at a formal banquet
during a conference you attended in Seattle,
Washington.” (Id.) Additionally, Walsh was
subsequently
permitted
to
review
Kaiser’s
investigation report, which summarizes the evidence
against him and contains redactions only of the
names of the persons, other than Walsh, who were
involved in the incident. Those redactions are
replaced with designations, such as “student 1” or
“faculty member 1.” (Id. at 4-8.)
The Court concludes that Walsh had adequate
notice of the charges against him to satisfy the
requirements of due process. Indeed, the Court
suspects Mason’s letter alone was sufficient notice to

This letter does not mention UNTHSC’s consensualrelationship policy or identify it as a basis for Walsh’s
termination. Although the contents of that policy are not before
the Court, it appears that UNTHSC precludes “consensual
relationships between faculty or staff members in positions of
authority and their subordinates or students.” (Defs.’ Third Am.
App. (doc. 45) 346, ¶2.) The sexual-harassment policy mentions
that UNTHSC forbids consensual relationships between faculty
and students, but further indicates that “[f]or details regarding
Consensual Relationships see policy 2.08.” (Id.) None of the
letters between Walsh and the defendants specifically mention
the consensual-relationship policy or cite it as a basis for Walsh’s
termination.
6

36a
comply with the requirements of due process. See
Wells, 793 F.2d at 683 (concluding that sufficient
notice was provided regarding two charges that “were
allegations of misdeeds in specific circumstances,
permitting [the plaintiff] to prepare his defense”). But
assuming Mason’s letter was insufficient alone,
Walsh certainly had sufficient notice of the charges
against him after reviewing Kaiser’s report. That
report specifies that “Walsh is in violation of Chapter
5 of the Human Resources Policy section 05-205
prohibiting sexual harassment.”7 (Defs.’ Third Am.
App. (doc. 45) 4.) It also lists the witnesses Kaiser
interviewed (albeit with names redacted) and details
the information provided by those witnesses. The
redactions in Kaiser’s report are not sufficiently
numerous or lengthy to render it ineffective to provide
Walsh with adequate notice of the cause for his
proposed termination in sufficient detail to permit
him to respond.8 And Walsh has failed to cite any

In the report’s “Summary of Findings,” Kaiser
mentions only that the student’s “allegation of sexual
harassment is substantiated” and that Walsh violated policy “05205 prohibiting sexual harassment.” (Defs.’ Third Am. App. (doc.
45) 4.) Kaiser does not mention the consensual-relationship
policy in this summary. She does, however, note at the end of her
report the consensual-relationship policy and concludes that
“even if the complaint by student 1 was not substantiated, Dr.
Walsh would still be in violation of UNTHSC policy.” (Id. at 8.)
7

In support of his argument, Walsh cites to Stone v.
F.D.I.C., 179 F.3d 1368, 1377 (Fed. Cir. 1999), for the proposition
that “[p]rocedural due process guarantees are not met if the
employee has notice only of certain charges or portions of the
evidence and the deciding official considers new and material
information.” (Walsh’s Resp. Br. (doc. 38) 15.) But Walsh wholly
fails to present any evidence suggesting that the defendants had
an unredacted copy of Kaiser’s report or that they considered any
“new and material information” that was not included in the
8

37a
authority suggesting that his due-process rights
required that he be provided with a personal copy of
Kaiser’s report.
2. Names and Cross Examination of Witnesses
Walsh also complains about Defendants’
failure to allow him to cross-examine the primary
witness against him. Specifically, Walsh contends
that the Committee should have called the
complaining student to testify in person at the
hearing or at least required her to provide a sworn
statement. Instead, the medical student’s version of
events was relayed to the Committee solely through
Kaiser’s testimony. Indeed, Defendants never
provided Walsh with the name of the student at issue.
“When an administrative termination hearing
is required, federal constitutional due process
demands either an opportunity for the person charged
to confront the witnesses against him and to hear
their testimony or a reasonable substitute for that
opportunity.” Wells, 793 F.2d 679, 683 (5th Cir. 1986).
Defendants contend that Walsh had an opportunity to
confront Kaiser, who testified at the hearing. But
Kaiser was not the complaining student. She had no
personal knowledge of the events of the evening in
question and simply relayed the complaining
student’s hearsay statements to the Committee. The
student’s credibility was never tested by being
required to submit a declaration under penalty of

copy of the report Walsh was permitted to examine. Indeed,
UNTHSC’s Title IX Coordinator, Trisha Van Duser, declared
that the “redacted version of the investigation report was the
only copy provided to the Chair of the Faculty Grievance and
Appeal Committee.” (Defs.’ Third Am. App. (doc. 45) 2, 6.)

38a
perjury, nor was Walsh provided with the student’s
name or an opportunity to hear her statements
personally or delve into her credibility in front of the
Committee. The Court concludes that, as a matter of
law, Walsh’s being able to hear Kaiser’s testimony
and question her about it was not a reasonable
substitute for “an opportunity . . . to confront the
witness[] against him and to hear [her] testimony.”
See id. Kaiser was not the true witness against
Walsh--the student was. So confrontation of Kaiser
and her hearsay-ridden and allegedly sanitized
testimony affords no more than a chimera of the
protection an accused person is entitled to via the
right of confrontation. And in any event, Walsh has
provided reason to question whether Kaiser was
biased against him, given his perception at their
initial meeting that Kaiser had prejudged him
coupled with her omission from her report of the
majority of Walsh’s account of the evening in
question. Consequently, the Court concludes that
Walsh has demonstrated a constitutional violation of
his due-process right to confront his accuser or a
reasonable substitute for that opportunity. See
Kermode v. Univ. of Miss. Med. Ctr., No. 3:09CV584DPJ-FKB, 2011 WL 4351340, *6 (S.D. Miss. Sept. 15,
2001) (concluding that issue of fact precluded
summary judgment on professor’s due-process claim
where he “never had a chance to hear and confront
[the student] although she was interviewed as part of
the investigation leading to the termination
recommendation”); see also Tonkovich v. Kansas Bd.
of Regents, 159 F.3d 504, 519 (10th Cir. 1998)
(reversing district court’s denial of qualified
immunity where the professor accused of sexual
harassment “received sufficient notice of the charges

39a
against him, and, in addition, . . . had the opportunity
to cross-examine the Law Student at his hearing”);
Winter v. Pa. State Univ., 172 F. Supp. 3d 756, 770
(M.D. Pa. 2016) (concluding due-process violation was
not alleged where professor complained about
“testimony from faculty without personal knowledge
of the harassment” where professor also conceded in
his complaint that the student “herself testified at the
hearing and that [his counsel] was able to crossexamine her.”)
The Court is uncertain whether it would reach
the same conclusion had Walsh instead been
terminated for violating the school’s consensualrelationship policy. Walsh admits that on the night in
question, he held the student’s hand and flirted with
her. (Walsh’s Am. Compl. (doc. 6) 7, ¶¶ 23-24.) But
Walsh instead was terminated for violating the
school’s sexual-harassment policy, which prohibits
“[u]nwelcome sexual advances . . . and other verbal or
physical conduct of a sexual nature [if it] substantially
interfer[es] with an individual’s academic . . .
performance or creat[es] an intimidating, hostile, or
offensive . . . educational environment.” (Defs.’ Third
Am. App. (doc. 45) 345.) The Committee very clearly
understood at the hearing that Walsh’s recommended
discipline was due to an alleged violation of the
school’s sexual-harassment policy, and not the
consensual-relationship policy. (Id. at 155-57.) As a
result, the extent to which the student welcomed
Walsh’s conduct and whether it substantially
interfered with her academic performance or created
a hostile educational environment was relevant.
Consequently, Walsh should have been provided with
her name and permitted to question her and delve
into her credibility at the hearing.

40a
3. Meaningful Opportunity to be Heard
Walsh further contends that his due-process
rights were violated when Gwirtz refused to permit
questions regarding the student’s conduct and further
refused to permit the Committee to consider pictures
Walsh had taken during the evening in question that
allegedly show the student smiling, laughing, and
remaining in close proximity to Walsh throughout the
evening. Because the extent to which the student
welcomed Walsh’s advances or whether they
interfered with her educational environment was at
issue, the failure to permit Walsh to introduce these
photographs and elicit testimony regarding the
student’s conduct on the night in question violated
Walsh’s right to a meaningful opportunity to be
heard.
4. Impartiality of Decision Makers
Walsh’s final complaint is that one of the
Committee members, defendant Damon Schranz, was
not impartial because he acted as the student’s
preceptor and spent many hours per week with her.
To demonstrate a genuine issue of fact regarding
Schranz’s bias sufficient to constitute a due-process
violation, Walsh must present evidence demonstrating
“actual partiality of . . . [the Committee’s] individual
members.” Levitt, 759 F.2d 1224, 1228 (5th Cir. 1985).
Indeed, inasmuch as Kaiser’s report redacted the
student’s name, it is entirely unclear whether
Schranz even knew he was preceptor for the student
at issue.
In Walsh’s response to the summary-judgment
motion, however, he requests permission to conduct
discovery to determine whether Schranz knew of the

41a
student’s identity while serving on the Committee
and inquire into his impartiality. Defendants’ reply
characterizes this request as one for a “fishing
expedition” and notes that Walsh “offers no evidence
in support of [actual bias].” (Defs.’ Reply (doc. 43) 8.)
But in accordance with this Court’s Initial Scheduling
Order for Consideration of the Defense of Qualified
Immunity (doc. 30), all discovery was stayed pending
resolution of Defendants’ immunity defenses. Thus,
Walsh has not yet had an opportunity to conduct
discovery regarding Schranz’s alleged bias. And the
Court concludes that Walsh has alleged a sufficient
basis upon which to question that impartiality to
justify discovery regarding that issue. Thus, the
Court denies summary judgment on this ground
pending further discovery.
B.

Clearly Established Law

The question remains whether the defendants’
failure to require the student to testify and Gwirtz’s
refusal to permit Walsh to inquire about the student’s
conduct and present photographs taken the night in
question was objectively unreasonable in light of
clearly established law at the time of the hearing.
“Government officials performing discretionary
functions generally are shielded from liability for civil
damages insofar as their conduct does not violate
clearly established statutory or constitutional rights
of which a reasonable person would have known.”
Harlow v. Fitzgerald, 457 U.S. 800, 818 (1981). “The
‘of which a reasonable person would have known’
language in the qualified[-]immunity standard does
not add anything to the ‘clearly established law’
requirement because ‘a reasonably competent public
official should know the law governing his conduct.’”

42a
Kinney v. Weaver, 367 F.3d 337, 349 (5th Cir. 2004)
(quoting Harlow, 457 U.S. at 818-19).
For purposes of qualified immunity, “clearly
established” means that “‘[t]he contours of the right
must be sufficiently clear that a reasonable official
would understand that what he is doing violates that
right.’” Saucier v. Katz, 533 U.S. 194, 202 (2001)
(quoting Anderson v. Creighton, 483 U.S. 635, 640
(1987). Although case law with “materially similar
facts” is not required, being clearly established in an
abstract sense (e.g., government officials may not
deny due process) gives insufficient notice. Kinney,
367 F.3d at 350. Rather, the law must be “clear in the
more particularized sense that reasonable officials
should be ‘on notice that their conduct is unlawful.’”
Id.; see also Hope v. Pelzer, 536 U.S. 730, 739-42
(2002)(recognizing that when the constitutional
violation is obvious, a materially similar case is
unnecessary to find the law clearly established).
Because the primary concern is fair notice to the
defendant, the law can be clearly established “despite
notable factual distinctions between the precedents
relied on and the cases then before the Court, so long
as the prior decisions gave reasonable warning that
the conduct then at issue violated constitutional
rights.” Hope, 536 U.S. at 740 (citation omitted). But
the “preexisting law must dictate, that is, truly
compel (not just suggest or allow or raise a question
about), the conclusion for every likesituated,
reasonable government agent that what defendant is
doing violates federal law in the circumstances.” Pasco
v. Knoblauch, 566 F.3d 572, 579-80 (5th Cir.
2009)(quotation omitted); see also Mullenix, 136 S.Ct.
at 308 (“‘We do not require a case directly on point,
but existing precedent must have placed the statutory

43a
or constitutional question beyond debate.’”) (quoting
Ashcroft v. Kidd, 563 U.S 731, 741 (2011)).
As previously noted, Fifth Circuit case law
from 1986 required that “[w]hen an administrative
termination hearing is required [for a public school
employee], federal constitutional due process
demands either an opportunity for the person charged
to confront the witnesses against him and to hear
their testimony or a reasonable substitute for that
opportunity.” Wells, 793 F.2d 679, 683 (5th Cir. 1986).
Thus, long before the time of Walsh’s 2014 hearing, it
was clearly established that he was entitled to either
an opportunity to hear and confront his accuser or a
reasonable substitute for that opportunity. Here, the
student did not testify against Walsh at the hearing;
indeed, Defendants still had not provided her name to
Walsh at the time of hearing. And, as previously
noted, being permitted to confront Kaiser, who had no
personal knowledge about the evening in question,
simply was not a reasonable substitute for the
opportunity to hear from and confront his accuser.
Furthermore, Walsh’s right to a meaningful
opportunity to be heard was well established at the
time of the hearing. Walsh was accused of having
sexually harassed a student by making unwelcome
advances and/or engaging in conduct that created an
intimidating or offensive educational environment for
the student. A reasonable official in Gwirtz’s and
Williams’s positions should have known that Walsh’s
meaningful opportunity to be heard in response to
these sexual-harassment charges included being
permitted to ask questions about and present
evidence regarding whether the student welcomed his
advances.

44a
IV.

Conclusion

For the foregoing reasons, the Court
PARTIALLY GRANTS Defendants’ summaryjudgment motion; specifically, summary judgment is
GRANTED against Walsh’s contention that he did not
receive adequate notice of the charges against him.
The remainder of the motion is, however, DENIED.
SIGNED June 20, 2019.
/s/ Terry R. Means
TERRY R. MEANS
UNITED STATES DISTRICT JUDGE

45a
[ENTERED: August 9, 2019]
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
RALPH CLAY WALSH, JR. §
§
VS.
§
§
LISA HODGE, ET AL.
§

ACTION NO.
4:17-CV-323-Y

ORDER STAYING AND CLOSING CASE
PENDING INTERLOCUTORY APPEAL
(With Special Instructions to the Clerk of the Court)
On July 11, 2019, Defendants filed a notice of
appeal as to this Court’s recent order partially
granting and partially denying their summaryjudgment motion. In an effort to efficiently manage
this Court’s docket, the Court concludes that all
proceedings in this case should be and hereby are
STAYED, and this case is ADMINISTRATIVELY
CLOSED, pending the United States Court of Appeals
for the Fifth Circuit’s final decision and issuance of
mandate regarding the interlocutory appeal. Either
party may move to reopen this case no later than
thirty days after the Fifth Circuit’s issuance of
mandate. Cf. Prior Products, Inc. v. Southwest WheelNCL Co., 805 F.2d 543, 544 (5th Cir. 1986).
The clerk of the Court shall note this closing on
the Court’s docket.
SIGNED August 9, 2019.
/s/ Terry R. Means
TERRY R. MEANS
UNITED STATES DISTRICT JUDGE

